Audit Report




OIG-10-019
Audit of the Financial Management Service’s Fiscal Years 2009
and 2008 Schedules of Non-Entity Assets, Non-Entity Costs and
Custodial Revenue
December 9, 2009




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                December 9, 2009


            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           FINANCIAL MANAGEMENT SERVICE

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Management Service’s
                                    Fiscal Years 2009 and 2008 Schedules of Non-Entity Assets,
                                    Non-Entity Costs and Custodial Revenue

            I am pleased to transmit the attached audited Financial Management Service’s (FMS)
            Fiscal Years (FY) 2009 and 2008 Schedules of Non-Entity Assets, Non-Entity Costs
            and Custodial Revenue (the Schedules). Under a contract monitored by the Office of
            Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an audit of the Schedules of Non-Entity Assets, Non-Entity Costs and
            Custodial Revenue for FY 2009 and 2008. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards;
            applicable provisions of Office of Management and Budget (OMB) Bulletin
            No. 07-04, Audit Requirements for Federal Financial Statements, as amended; and
            the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                        and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit of FMS’ Schedules, KPMG LLP found:

                    •   the Schedules present fairly, in all material respects, the Non-Entity Assets
                        as of September 30, 2009 and 2008, and Non-Entity Costs and Custodial
                        Revenue for the years then ended, in conformity with U.S. generally
                        accepted accounting principles,
Page 2


        •   certain deficiencies in internal control over financial reporting that were
            considered collectively to be a significant deficiency 1 (described below),
            and
        •   no instances of reportable noncompliance with laws and regulations tested.

KPMG LLP concluded that FMS’ IT general controls do not provide reasonable
assurance that: (1) an adequate security management program is in place; (2) access
to computer resources (data, equipment, and facilities) is reasonable and restricted
to authorized individuals; (3) changes to information system resources are authorized
and systems are configured and operated securely and as intended; (4) incompatible
duties are effectively segregated; and (5) contingency planning protects information
resources and minimizes the risk of unplanned interruptions and provides for
recovery of critical operations should an interruption occur. Individually or
collectively, the conditions observed and reported on could compromise FMS’ ability
to ensure security over sensitive financial data related to Non-Entity Assets,
Non-Entity Costs and Custodial Revenue and the reliability of key systems.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on FMS’ Schedules or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated December 7, 2009 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:     Richard L. Gregg
        Acting Fiscal Assistant Secretary


1
  A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance.
U.S. DEPARTMENT OF THE TREASURY
FINANCIAL MANAGEMENT SERVICE

   Independent Auditors’ Reports and
    Schedules of Non-Entity Assets,
 Non-Entity Costs and Custodial Revenue

      September 30, 2009 and 2008
                               U.S. DEPARTMENT OF THE TREASURY
                                FINANCIAL MANAGEMENT SERVICE



                                          Table of Contents



                                                                                  Page

Independent Auditors’ Report                                                        1

Independent Auditors’ Report on Internal Control                                    2

Independent Auditors’ Report on Compliance and Other Matters                        6

Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue              7

Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue     8

Attachment – Management’s Response                                                 25
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036




                                            Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the accompanying Schedules of Non-Entity Assets as of September 30, 2009 and 2008, and
Non-Entity Costs and Custodial Revenue for the years then ended (collectively, Treasury Managed Accounts
(TMA)) (hereinafter referred to as the Schedules) of the U.S. Department of the Treasury’s Financial
Management Service (FMS). These Schedules are the responsibility of FMS management. Our responsibility is
to express an opinion on these Schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and applicable provisions of Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those
standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable
assurance about whether the Schedules are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of FMS’ internal control
over financial reporting related to TMA. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the Schedules, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the overall
Schedule presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the Schedules referred to above present fairly, in all material respects, the Non-Entity Assets as
of September 30, 2009 and 2008, and Non-Entity Costs and Custodial Revenue for the years then ended, in
conformity with U.S. generally accepted accounting principles.

As discussed in Notes 1 and 6, FMS changed its method of accounting for and reporting fiduciary funds related
to TMA in fiscal year 2009 to adopt the provisions of the Federal Accounting Standards Advisory Board’s
Statement of Federal Financial Accounting Standards No. 31, Accounting for Fiduciary Activities.

In accordance with Government Auditing Standards, we have also issued our reports dated December 7, 2009,
on our consideration of FMS’ internal control over financial reporting relating to TMA and our tests of its
compliance with certain provisions of applicable laws and regulations relating to TMA. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance and
the results of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in assessing the results of our audits.




December 7, 2009




                                  KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                  member firm of KPMG International, a Swiss cooperative.
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the Schedules of Non-Entity Assets as of September 30, 2009 and 2008, and Non-Entity
Costs and Custodial Revenue for the years then ended (collectively, Treasury Managed Accounts (TMA))
(hereinafter referred to as the Schedules) of the U.S. Department of the Treasury’s Financial Management
Service (FMS), and have issued our report thereon dated December 7, 2009. As discussed in Notes 1 and 6,
FMS changed its method of accounting for and reporting fiduciary funds related to TMA in fiscal year 2009 to
adopt the provisions of the Federal Accounting Standards Advisory Board’s Statement of Federal Financial
Accounting Standards No. 31, Accounting for Fiduciary Activities.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and applicable provisions of Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those
standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable
assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for establishing and maintaining effective internal control relating to
TMA. In planning and performing our fiscal year 2009 audit, we considered FMS’ internal control over
financial reporting relating to TMA by obtaining an understanding of the design effectiveness of FMS’ internal
control relating to TMA, determining whether internal controls relating to TMA had been placed in operation,
assessing control risk, and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the Schedules. To achieve this purpose, we did not test all internal
controls relating to TMA relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the effectiveness of
FMS’ internal control over financial reporting relating to TMA. Accordingly, we do not express an opinion on
the effectiveness of FMS’ internal control over financial reporting relating to TMA.

Our consideration of internal control over financial reporting relating to TMA was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in the internal control
over financial reporting relating to TMA that might be deficiencies, significant deficiencies, or material
weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of deficiencies, in
internal control that is less severe than a material weakness, yet important enough to merit attention by those
charged with governance. A material weakness is a deficiency, or combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of the Schedules will not be
prevented, or detected and corrected on a timely basis.




                                                                            2
                                  KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                  member firm of KPMG International, a Swiss cooperative.
In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial reporting
relating to TMA that we consider to be material weaknesses, as defined above. However, we identified certain
deficiencies in internal control over financial reporting relating to TMA that collectively we consider to be a
significant deficiency and that is described in Exhibit I. Exhibit II presents the status of the prior year
significant deficiency.

FMS’ response to the finding identified in our audit is presented in the Attachment. We did not audit FMS’
response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




December 7, 2009




                                                       3
                                                                                                      EXHIBIT I

                                       U.S. Department of the Treasury

                                        Financial Management Service

               Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                  Significant Deficiency in Internal Control Over Financial Reporting

Information Technology Controls Over Systems Managed by FMS and Third Parties

FMS relies on an extensive array of information technology (IT) systems to manage the Non-Entity Assets,
Non-Entity Costs and Custodial Revenue (collectively, Treasury Managed Accounts (TMA)). Internal controls
over these operations are essential to ensure the integrity, confidentiality, and reliability of critical data while
reducing the risk of errors, fraud, and other illegal acts.

Our review of IT controls covered general and selected application controls. General controls are the structure,
policies, and procedures that apply to an entity’s overall computer systems. They include security management,
access controls, configuration management, segregation of duties, and contingency planning. Business process
application controls involve input, processing, and output controls related to specific IT applications.

During our fiscal year 2009 audit, we performed a review of computer controls managed by FMS and
third-party service providers, using the Government Accountability Office’s (GAO’s) Federal Information
Systems Controls Audit Manual (FISCAM). Our review included general and selected application controls
related to TMA.

Our testing revealed the necessary policies and procedures to detect and correct control and functionality
weaknesses have not been consistently documented, implemented, or enforced. FMS’ IT general controls do
not provide reasonable assurance that:

    1. An adequate security management program is in place;

    2. Access to computer resources (data, equipment, and facilities) is reasonable and restricted to
       authorized individuals;

    3. Changes to information system resources are authorized and systems are configured and operated
       securely and as intended;

    4. Incompatible duties are effectively segregated; and

    5. Contingency planning protects information resources and minimizes the risk of unplanned
       interruptions and provides for recovery of critical operations should an interruption occur.

Individually or collectively, the conditions we observed and reported on could compromise the FMS’ ability to
ensure security over sensitive financial data related to TMA and the reliability of key systems.

Because of the sensitivity of the information, we issued a separate sensitive but unclassified report to the
Commissioner of FMS detailing the conditions identified and our recommendations for corrective action.

Management's Response:
Management has prepared an official response presented as a separate attachment to this report. In summary,
management agreed with our findings and its comments were responsive to our recommendations.


                                                         4
                                                                                      EXHIBIT II
                                   U.S. Department of the Treasury

                                   Financial Management Service

             Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue


                             Status of Prior Year Significant Deficiency




                         Finding                              Action Complete   Action in
                                                                                Progress


Overstatement of Receivable on Deposit of Earnings, Federal          X
Reserve System




                                                  5
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and the
Commissioner of the Financial Management Service:

We have audited the Schedules of Non-Entity Assets as of September 30, 2009 and 2008, and Non-Entity
Costs and Custodial Revenue for the years then ended (collectively, Treasury Managed Accounts (TMA))
(hereinafter referred to as the Schedules) of the U.S. Department of the Treasury’s Financial Management
Service (FMS), and have issued our report thereon dated December 7, 2009. As discussed in Notes 1 and 6,
FMS changed its method of accounting for and reporting fiduciary funds related to TMA in fiscal year 2009 to
adopt the provisions of the Federal Accounting Standards Advisory Board’s Statement of Federal Financial
Accounting Standards No. 31, Accounting for Fiduciary Activities.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and applicable provisions of Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those
standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable
assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for complying with laws and regulations applicable to the amounts
reflected in the Schedules. As part of obtaining reasonable assurance about whether the Schedules are free of
material misstatement, we performed tests of compliance with certain provisions of laws and regulations
relating to TMA, noncompliance with which could have a direct and material effect on the determination of the
amounts reflected in the Schedules, and certain provisions of other applicable laws and regulations specified in
OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable to FMS. However, providing
an opinion on compliance with those provisions was not an objective of our audit, and accordingly, we do not
express such an opinion.

The results of certain of our tests of compliance described in the preceding paragraph disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing Standards
or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of FMS management, the U.S. Department of the
Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




December 7, 2009




                                                                        6
                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.
                                U.S. DEPARTMENT OF TREASURY
                              FINANCIAL MANAGEMENT SERVICE
            Schedules of Non-Entity Assets, Non-Entity Costs, and Custodial Revenue
                                  September 30, 2009 and 2008
                                             (In Thousands)

                                                                      2009             2008
Non-Entity Assets (Note 6)
  Intra-governmental:
     Fund Balance with Treasury (Note 2)                          $     368,167    $      630,553
     Accounts Receivable, Net (Note 3)                                  285,315           372,574
     Other                                                                    -               440
  Total Intra-governmental                                              653,482         1,003,567

  With the Public:
     Receivable on Deposit of Earnings, Federal Reserve System         1,253,984        1,465,632
     Accounts Receivable, Net (Note 3)                                       573           10,488
     Other                                                                     -           14,168
  Total With the Public                                                1,254,557        1,490,288
Total Non-Entity Assets                                           $    1,908,039   $    2,493,855

Commitments and Contingencies (Note 7)

Non-Entity Costs (Note 4)
  Credit Reform: Interest Paid on Uninvested Funds                $   12,632,930   $    5,378,162
  Judgments                                                            2,304,834          785,724
  Resolution Funding Corporation                                       2,120,124        1,392,990
  Public Broadcasting Fund, Corporation for Public Broadcasting          461,233          448,476
  Legal Services Corporation                                             388,010          346,716
  District of Columbia                                                   211,616          121,457
  Presidential Election Campaign Fund                                        465          106,297
  Moneys Erroneously Received and Covered                                 71,299           47,070
  Other                                                                   40,072           39,782
Total Non-Entity Costs                                            $   18,230,583   $    8,666,674

Custodial Revenue (Note 5)
  Deposit of Earnings, Federal Reserve System                     $   34,318,322   $   33,598,011
  Interest Received from Tax and Loan Depositaries                        39,527          604,029
  Recoveries from Federal Agencies for Settlement of Claims
     from Contract Disputes                                               91,840           73,599
  General Fund Proprietary Receipts, Not Otherwise Classified            101,134           73,163
  Fines, Penalties, and Forfeitures, Not Otherwise Classified              3,348              546
  Interest Payments from States, Cash Management Improvement              36,324           56,977
  Other                                                                   22,711           23,387
  Total Cash Collections                                              34,613,206       34,429,712
  Accrual Adjustment                                                   (307,378)           90,475
Total Custodial Revenue                                           $   34,305,828   $   34,520,187




                    The accompanying notes are an integral part of these Schedules.
                                                 7
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2009 and 2008


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Reporting Entity

     The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
     (Treasury). FMS’s mission is to improve the quality of government financial management. FMS’s
     commitment and responsibility is to help its customers achieve success. FMS does this by linking
     program and financial management objectives and by providing financial services, information,
     advice, and assistance to its customers. FMS serves taxpayers, Treasury, Federal program agencies,
     and government policy makers.

     Non-Entity accounts are those Treasury Account Symbols (TAS) that FMS holds but are not
     available to FMS in its operations. For example, FMS accounts for certain cash that the Federal
     Government collects and holds on behalf of the U. S. Government or other entities. These Schedules
     include the activity of Non-Entity TAS managed by FMS. However, the Schedules of Non-Entity
     Assets, Non-Entity Costs and Custodial Revenue (the Schedules) do not include Non-Entity
     Operating Cash of the Federal Government (commonly known as Government-wide Cash).

     Some Non-Entity accounts receive appropriations for specific Federal programs. Some of the
     appropriations are permanent, indefinite appropriations. They are not subject to budgetary ceilings
     established by Congress. Both types of appropriations are used for payments to Federal program
     agencies and others.

     Some Non-Entity accounts receive cash collections. These types of accounts are miscellaneous
     receipt accounts. Examples of collections include interest payments, contributions, and collections of
     fines and penalties.

     The financial activities of FMS are affected by, and are dependent upon, those of Treasury and the
     Federal Government as a whole. Thus, the accompanying schedules do not reflect the results of
     financial decisions and activities applicable to FMS as if it was a stand alone entity.

  B. Basis of Preparation

     The Schedules have been prepared from the accounting records maintained by FMS and are meant to
     report Non-Entity Assets, Non-Entity Costs and Custodial Revenue of FMS in accordance with U.S.
     generally accepted accounting principles. Such principles require the use of the accrual method of

                This information is an integral part of the accompanying Schedules.
                                                  8
                         U.S. DEPARTMENT OF THE TREASURY
                          FINANCIAL MANAGEMENT SERVICE

      Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                 September 30, 2009 and 2008

   accounting to record transactions. Under the accrual method, revenues are recognized when earned
   and costs are recognized when a cost is incurred, without regard to receipt or payment of cash. These
   Schedules were prepared following accrual accounting.

   The standards used in the preparation of these Schedules are issued by the Federal Accounting
   Standards Advisory Board (FASAB), as the body authorized to establish U.S. generally accepted
   accounting principles for Federal government entities.

   Balances reflected on these Schedules may differ from those on financial reports prepared by FMS
   pursuant to certain OMB directives that are primarily used to monitor and control FMS’ use of
   budgetary resources.

C. Use of Estimates in Preparing the Schedules

   The preparation of these Schedules, in conformity with U.S. generally accepted accounting
   principles, requires management to make estimates and assumptions. These estimates affect the
   reported amounts of non-entity assets at the date of the Schedules and the amounts of custodial
   revenues and non-entity costs during the reporting period for the Schedules. For example, estimates
   can be based on prior year disbursements. Actual results may differ from these estimates.

D. Fund Balance with Treasury

   The Fund Balance with Treasury (FBWT) is an asset account that reflects the available budget
   spending authority of Federal agencies. Collections and disbursements by agencies will,
   correspondingly, increase or decrease the balance in the account.




              This information is an integral part of the accompanying Schedules.
                                                9
                         U.S. DEPARTMENT OF THE TREASURY
                          FINANCIAL MANAGEMENT SERVICE

      Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                  September 30, 2009 and 2008


E. Accounts Receivable

   Accounts receivable is comprised of intra-governmental accounts (i.e., amounts due from other
   Federal agencies) and accounts with the public. Accounts with the public include amounts due from
   the Federal Reserve System. FMS records an allowance for uncollectible accounts based on an
   analysis of individual accounts, a group based methodology, and a percentage of total receivables and
   historical collections at September 30.

F. Receivable on Deposit of Earnings, Federal Reserve System

   Federal Reserve Banks are required by the Board of Governors of the Federal Reserve System to
   transfer to the U.S. Treasury excess earnings, after providing for the cost of operations, payment of
   dividends, and reservation of an amount necessary to equate surplus with capital paid in. In the event
   of losses, or a substantial increase in capital, a Federal Reserve Bank will suspend its payments to the
   U.S. Treasury until such losses or increases in capital are recovered through subsequent earnings.
   Weekly payments to the U.S. Treasury may vary significantly. The Receivable on Deposit of
   Earnings, Federal Reserve System, represents the earnings due to Treasury as of September 30, but
   not collected by Treasury until after the end of the month.

G. Custodial Revenue

   Custodial revenue is initially recorded on a cash basis when amounts are deposited into receipt
   accounts. However, an adjustment is reflected on the Schedules at September 30 to accrue for
   collections in a fiscal year relating to prior year’s Non-Entity Accounts Receivable, and to account
   for other changes in the Non-Entity Accounts Receivable not resulting in a collection of cash in the
   current period (i.e., new reimbursements and changes in the allowance for uncollectible accounts).




              This information is an integral part of the accompanying Schedules.
                                               10
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                     September 30, 2009 and 2008


  H. Fiduciary Activities

      Fiduciary activities are the collection or receipt, and the management, protection, accounting,
      investment, and disposition by the U.S. Government of cash or other assets in which non-Federal
      individuals or entities have an ownership interest that the U.S. Government must uphold. Fiduciary
      cash and other assets are not assets of the U.S. Government. Statement of Federal Financial
      Accounting Standards (SFFAS) No. 31, Accounting for Fiduciary Activities, which is effective for
      periods beginning after September 30, 2008, prescribes that fiduciary type activities no longer be
      reported in proprietary financial statements. Therefore, these activities are not reported on the
      Schedules for the fiscal year ended September 30, 2009. They are reported in Note 6 to the
      Schedules. They are included on the Schedules for the fiscal year ended September 30, 2008.

  I. Reclassifications

      Certain amounts in the prior year’s presentation have been reclassified to conform with the current
      year’s presentation. These reclassifications have no effect on previously reported total non-entity
      assets, total non-entity costs, or total custodial revenue.


NOTE 2. FUND BALANCE WITH TREASURY (FBWT)

  FBWT is funded through various sources depending on the specific legislative authority and purpose, and
  may be used only for specific purposes. Such amounts may be in escrow or other special accounts. These
  accounts are primarily funded through appropriations, collections, tax receipts, gifts to the Government,
  and settlements from foreign countries.

  Obligated balances are funds against which budgetary obligations have been incurred, but disbursements
  have not been made. The Unobligated Available balance is the amount of funds available to FMS against
  which no claims have been recorded. The Unobligated Unavailable balance is the amount of unobligated
  funds remaining from appropriations that have expired, appropriations that have not been apportioned,
  authority that is not available pursuant to public law, and the amount of funds in deposit funds, clearing
  accounts and receipt accounts. FBWT as of September 30, 2009 and 2008 consisted of the following
  (amounts in thousands):




                 This information is an integral part of the accompanying Schedules.
                                                  11
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2009 and 2008

                                            2009
                                                Unobligated      Unobligated
Account Type                      Obligated       Available      Unavailable       Total
Appropriated Funds              $    111,916    $    155,188     $          2    $  267,106
Revolving Funds                           199           4,173                -        4,372
Other Fund Types                            -               -         96,689         96,689
Total                           $    112,115    $    159,361     $    96,691     $  368,167




                                            2008
                                                Unobligated      Unobligated
Account Type                      Obligated       Available      Unavailable       Total
Appropriated Funds              $     97,505    $    116,801     $          2    $  214,308
Revolving Funds                           411           3,988                -        4,399
Trust Funds                                43              (4)               -           39
Other Fund Types                            -                -       411,807        411,807
Total                           $     97,959    $    120,785     $   411,809     $  630,553



  The fund balance, unobligated available supports the budgetary resources available except for $310
  thousand in 2008, which is invested. The fund balance, unobligated unavailable for appropriated funds
  supports the budgetary resources not available. The fund balance, unobligated unavailable for other fund
  types includes only deposit funds and suspense accounts that do not have a budgetary impact.


NOTE 3. ACCOUNTS RECEIVABLE, NET

  A. Intra-governmental Accounts Receivable, Net

      Intra-governmental accounts receivable principally includes amounts for which Federal agencies are
      required to reimburse the Treasury’s Judgment Fund for settlements paid or accrued on their behalf
      for contract disputes pursuant to the Contract Disputes Act of 1978 (CDA) and the Notification and
      Federal Employee Anti-discrimination and Retailiation Act of 2002 (No FEAR). While the CDA and

                 This information is an integral part of the accompanying Schedules.
                                                  12
                      U.S. DEPARTMENT OF THE TREASURY
                       FINANCIAL MANAGEMENT SERVICE

   Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                              September 30, 2009 and 2008

No FEAR require Federal agencies reimburse the Judgment Fund for payments, CDA and No FEAR
do not authorize FMS to initiate collection action against those agencies. Accordingly, FMS has
historically had difficulty in collecting amounts owed under the CDA. An allowance for uncollectible
accounts has been established to recognize losses on receivables that may not be collected under this
program. As a result of the annual review of the uncollectible estimate for CDA, the allowance
amount was increased by $140 million from 2008 to 2009, and $30 million from 2007 to 2008.
During the individual account analysis, it was determined that four of the non-reimbursing agencies
made up 82% of the intra-governmental accounts receivable balance. An allowance for uncollectible
accounts has not been established for No FEAR Act receivables because an agency will be deemed
non-compliant if it fails to reimburse or make timely arrangements for reimbursement; therefore,
amounts owed are being collected. The activity in the allowance account each year is reflected in the
“Accrual Adjustment” line in the custodial revenue section of the Schedules.

Intra-governmental accounts receivable as of September 30, 2009 and 2008 consist of the following
(amounts in thousands):
                                                               2009              2008
 Claims for CDA and Fire Fighting                          $ 1,183,751     $ 1,128,138
 Claims for No FEAR                                              1,564             4,436
 Less: Allowance for Uncollectable Accounts                   (900,000)        (760,000)
 Accounts Receivable, Net                                  $ 285,315       $    372,574




           This information is an integral part of the accompanying Schedules.
                                            13
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2009 and 2008

  B. Accounts Receivable with the Public, Net

     Accounts Receivable with the Public, exclusive of amounts due from the Federal Reserve System, as
     of September 30, 2009 and 2008, consist of the following (amounts in thousands):

                                                                          2009             2008
      U.S. Treasury Check Forgery Insurance Fund Receivables         $     1,089       $     2,731
      General Fund Proprietary Receipts                                      127                 -
      Interest Received from Tax and Loan Depositaries                          -             8,715
      Interest Payments from States                                             -                25
      Gross Accounts Receivable                                            1,216            11,471
      Less: Allowance for Uncollectable Accounts                            (643)              (983)
      Accounts Receivable, Net                                       $       573       $    10,488

     The U.S. Treasury Check Forgery Insurance Fund was established to expedite payments on claims
     and provide a dependable source of funds to meet the Federal Government’s responsibility for the
     payment of settlement checks issued to replace checks paid over forged endorsements. The receivable
     represents the amount due from banks that cashed the forged checks. The allowance for uncollectible
     accounts for Check Forgery is calculated by comparing losses to accounts receivable with the public.
     The percentage represents a portion of the current outstanding accounts receivable that are deemed
     uncollectible.

     The receivable for Interest Received from Tax and Loan Depositaries represents interest accrued and
     owed to the Treasury, from the depositaries participating in the Investment Programs, for the interest
     earned on Treasury Tax and Loan (TT&L) funds. The TT&L program invests funds collected by the
     Federal Government in short-term loans to commercial financial institutions. These funds can be
     withdrawn on demand to meet the Federal Government’s immediate cash requirements.


NOTE 4. NON-ENTITY COSTS

  Non-Entity Costs represent payments made on behalf of the Federal Government through various
  Treasury Managed Accounts (TMA) described below. In addition, Non-Entity Costs also include accruals
  for which FMS has made a commitment to make a payment for claims existing as of September 30, 2009
  and 2008.


                This information is an integral part of the accompanying Schedules.
                                                 14
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2009 and 2008


Credit Reform: Interest Paid on Uninvested Funds - Direct loan and loan guarantee financing accounts
receive various payments, repayments and fees, and make payments on defaults. When cash receipts
exceed outlays or when an agency does not disburse all of its borrowings, these balances are held in the
Treasury and earn interest. The interest earned on these balances is collected by each federal agency from
FMS.

Judgments - FMS processes payments from the Judgment Fund for certain judicially and administratively
ordered monetary awards against the United States, as well as amounts owed under compromise
agreements negotiated by the United States Department of Justice in settlement of claims arising under
actual or imminent litigation.

Resolution Funding Corporation - The Resolution Funding Corporation (REFCORP) account is
maintained pursuant to the Federal Home Loan Bank Act. FMS provides payments to REFCORP to cover
the interest expenses of REFCORP.

Public Broadcasting Fund, Corporation for Public Broadcasting - This account is used to make annual
payments to the Corporation for Public Broadcasting pursuant to the enacted Public Law. The payment is
used to assist and facilitate the full development of public telecommunications in which programs of high
quality, diversity, creativity, excellence, and innovations will be made available to public
telecommunications.

Legal Services Corporation - This account is used to pay the Legal Services Corporation through letter of
credit drawdowns. The Legal Services Corporation distributes appropriated funds to local nonprofit
organizations that provide free civil legal assistance, according to locally determined priorities, to people
living in poverty. Congress chartered the corporation as a private, non-profit entity outside of the Federal
Government.

District of Columbia - Payments to the District of Columbia cover certain operations of the District of
Columbia. It includes payments for a program of management reform, for the administration and
operation of correctional facilities, and for construction and repair of the District’s infrastructure.

Presidential Election Campaign Fund – The Presidential Election Campaign Fund (PECF) is maintained
in accordance with Internal Revenue Code. The purpose of the PECF is to defray the qualified campaign
expenses which were incurred by eligible presidential candidates or nominating conventions. The PECF
is a special fund financed through the collections of the $3 check off option selected by taxpayers. These
amounts are collected by the Internal Revenue Service and deposited into the PECF.


                This information is an integral part of the accompanying Schedules.
                                                 15
                         U.S. DEPARTMENT OF THE TREASURY
                          FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                  September 30, 2009 and 2008


The PECF is broken down into the following accounts: Presidential Primary Matching Payment Account;
Presidential Nominating Convention Account; and Presidential and Vice Presidential Nominee Account
(General Election). Each account is funded in accordance with budget estimates provided by the Federal
Election Commission (FEC). Payments from the PECF are made to qualified recipients upon certification
from the FEC.

Moneys Erroneously Received and Covered – This account is used for expenditures made for collections
or other receipts erroneously deposited into Treasury. Collections represent receipts that were not
properly chargeable to any other appropriation.

Other – Other Non-Entity costs include the following payments: Payments to the States, Payments to
Agencies for Interest on Uninvested Funds, Payment to the Institute of American Indian and Alaskan
Native Culture and Arts Development, Payments from the U.S. Treasury Check Forgery Insurance Fund,
Payments to Individuals under Private and Public Relief Laws, and Payments from Biomass Energy
Development.




               This information is an integral part of the accompanying Schedules.
                                                16
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

           Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                     September 30, 2009 and 2008

NOTE 5. COLLECTIONS OF CUSTODIAL REVENUE

  FMS collects Custodial Revenue that is not related to its mission and distributes the full amount collected
  to the Treasury General Fund. For the years ended September 30, 2009 and 2008, cash collections were as
  follows (amounts in thousands):

                                                                                 2009
                                                              October to       January to
                                                              December         September
                                                                2008             2009             Total
   Deposit of Earnings, Federal Reserve System               $ 9,766,602      $24,551,720      $34,318,322
   Interest Received from Tax and Loan Depositaries               29,299           10,228           39,527
   Recoveries from Federal Agencies for Settlement of
     Claims from Contract Disputes                                  8,110           83,730          91,840
   General Fund Proprietary Receipts                                5,435           95,699         101,134
   Fines, Penalties, and Forfeitures                                1,008            2,340           3,348
   Interest Payments from States                                        -           36,324          36,324
   Other                                                            5,064           17,647          22,711
   Total                                                     $ 9,815,518      $24,797,688      $34,613,206



                                                                                 2008
                                                              October to       January to
                                                              December         September
                                                                2007             2008             Total
   Deposit of Earnings, Federal Reserve System               $ 7,719,201      $25,878,810      $33,598,011
   Interest Received from Tax and Loan Depositaries              256,268          347,761          604,029
   Recoveries from Federal Agencies for Settlement of
     Claims from Contract Disputes                                 6,673           66,926           73,599
   General Fund Proprietary Receipts                              21,879           51,284           73,163
   Fines, Penalties, and Forfeitures                                 106              440              546
   Interest Payments from States                                        -          56,977           56,977
   Other                                                           2,790           20,597           23,387
   Total                                                     $ 8,006,917      $26,422,795      $34,429,712




                  This information is an integral part of the accompanying Schedules.
                                                   17
                             U.S. DEPARTMENT OF THE TREASURY
                              FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                      September 30, 2009 and 2008

NOTE 6. SCHEDULE OF FIDUCIARY ACTIVITY

  FMS accounts for certain cash that the Federal Government collects and holds on behalf of other entities.
  FMS collects funds from foreign governments to make payments to US nationals. Also, FMS maintains
  an account – Unclaimed Moneys – whose sole purpose, as originally established, was to hold moneys in
  trust for rightful owners (as received by Government agencies from sources outside the Government).
  While these activities are not reported on the Schedules for the fiscal year ended September 30, 2009,
  they are required to be reported in the notes to financial statements. They were included on the Schedules
  for the fiscal year ended September 30, 2008.

  The following are the funds identified by FMS as fiduciary activities along with activity for the year
  ended September 30, 2009.

  Proceeds and Payment of Certain Unpaid Checks
  The authority for this deposit fund is cited in 31 U.S.C. 3328. Specifically, the Secretary of the Treasury
  shall not be required to pay a Treasury check issued on or after the effective date of 31 U.S.C. 3328
  unless it is negotiated to a financial institution within 12 months after the date on which the check was
  issued; and the Secretary shall not be required to pay a Treasury check issued before the effective date of
  31 U.S.C. 3328 unless it is negotiated to a financial institution within 12 months after such effective date.
  If a check issued by a disbursing official and drawn on a designated depositary is not paid by the last day
  of the fiscal year after the fiscal year in which the check was issued, the amount of the check is withdrawn
  from the account with the depositary; and deposited in the Treasury. A claim for the proceeds of an
  unpaid check under this code may be paid from a consolidated account by this fund symbol.

  This deposit fund holds non-federal funds not paid to the public due to failure of cashing or depositing a
  check.

  Proceeds of Withheld Foreign Checks
  The authority for this deposit fund is cited in 31 U.S.C. 3329, 3330. Specifically, the Secretary of the
  Treasury shall prohibit a check or warrant drawn on public money from being sent to a foreign country
  from the United States or from a territory or possession of the United States when the Secretary decides
  that postal, transportation, or banking facilities generally, or local conditions in the foreign country, do
  not reasonably ensure that the payee will receive the check or warrant and will be able to negotiate it for
  full value. The account is maintained to receive and hold the proceeds of these checks.

  This deposit fund holds non-federal funds not paid to the public due to failure of cashing or depositing a
  check.

  War Claims Fund (Foreign Claims Settlement Commission)
  The War Claims Act of 1948, as amended, was designed to compensate individual American citizens and
  corporations for certain losses incurred by them in specific foreign countries during World War II. In
  order to compensate them, funds were to be made available by the proceeds from the sale of enemy assets
  that were seized under the Trading with the Enemy Act rather than through the appropriation process by
  the Congress.



                  This information is an integral part of the accompanying Schedules.
                                                   18
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2009 and 2008

Debt Management Operations
The authority for this deposit fund is cited in 31 U.S.C. 1321. The purpose of this deposit fund is to
account for non-federal collections and the disbursements of fees due to private collection agencies and
individuals.

Albanian Claims Fund
The Albanian Claims program is authorized under the Foreign Claims Settlement Act of 1949 (22 U.S.C.
1627). The statue authorizes special funds to be set up, authorizes investment of funds, and gives
directions on how claims are to be paid. On March 10, 1995, the United States and Albania signed an
agreement providing for the settlement of the United States national’s property claims against Albania in
exchange for a lump-sum payment by Albania to the United States of $2 million. The $2 million was
received by the United States on October 29, 1996, and was invested.

Payment of Unclaimed Moneys
The authority for this deposit fund is cited in 31 U.S.C. 1322. The balance of this account should
represent only moneys which, when claimed, are unequivocally refundable. The sole purpose of the
account, as originally established, was to hold such moneys in trust for rightful owners (as received by
Government agencies from sources outside the Government). Accordingly, items cleared from agency
uninvested trust, revolving and deposit fund accounts for transfer to account 20X6133 must meet all four
of the following criteria: (1) amount is $25.00 or more, (2) a refund, upon claim, would be absolutely
justified, (3) there is no doubt as to legal ownership of the funds, and (4) a named individual, business, or
other entity can be identified with the item.

Libyan Claims Settlement Fund
On August 14, 2008, the United States and Libya signed a comprehensive claims settlement agreement in
Tripoli. The agreement is designed to provide rapid recovery of fair compensation for American nationals
with terrorism-related claim against Libya. The U.S. Congress has supported this initiative by passing the
Libya Claims Resolution Act (Public Law 110-301), which was signed into law by the President on
August 4, 2008.

Kennedy Center Revenue Bond Sinking Fund
The authority for this deposit fund is cited in 98 Stat 1876. The Kennedy Center Revenue Bond Sinking
Fund is a fund set up to retire obligations of the Board of Trustees of the John F. Kennedy Center for the
Performing Arts. Annual deposits are received from the Kennedy Center by the first day of January and
deposited into the fund. Interest is received and reinvested on the Fund every May and November. The
fund matures in the year 2016.

Iranian Claims Settlement Fund
This claims fund is authorized under 22 U.S.C. 1627. The U.S. made an agreement with the Government
of Iran providing for the lump-sum settlement of claims of United States nationals against Iran of under
$250,000 per claim which had been pending against Iran at the Iran-U.S. Claims Tribunal at the Hague,
Netherlands. The claimants had filed these claims through the Department of State following the signing
of the Algiers Accords by the United States and Iran on January 19, 1981. In addition to the unresolved

                This information is an integral part of the accompanying Schedules.
                                                 19
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                   September 30, 2009 and 2008

small claims, the agreement included other claims. Under the terms of the agreement, Iran assented to the
transfer of $105 million to the United States. The United States and Iran submitted the Settlement
Agreement to the Tribunal for approval. It was approved and became effective on June 22, 1990.

German Democratic Republic Settlement Fund
Title VI of the Act [Public Law 94-542, approved October 18, 1976, 90 Stat. 2509 (22 U.S.C. 1644)]
authorized the Commission to receive and determine claims against the German Democratic Republic for
losses which arose from the nationalization, expropriation, or other taking by that government of property
interests of nationals of the United States. When the program was authorized, no funds were available for
payment of the awards issued by the Commission. The program was completed on May 16, 1981. The
Department of State subsequently conducted negotiations with the German Democratic Republic--and,
after unification, with the Federal Republic of Germany--to obtain a claims settlement to provide funds
for the payment of awards. Those negotiations culminated in the signing of a settlement agreement on
May 13, 1992.

Vietnam Claims Fund
On February 25, 1986, the Foreign Claims Settlement Commission completed a program to determine the
validity and amount of claims of United States’ nationals against the Socialist Republic of Vietnam
arising from the nationalization or other taking of property on or after April 29, 1975, when the
Government of the Republic of Vietnam (South Vietnam) was overthrown. The program had been
authorized by Public Law 96-606, approved December 28, 1980 [94 Stat. 3534 922 U.S.C. 1645)], which
added Title VII to the Act. The Commission made determinations on 534 claims, granting awards to 192
claimants in the total principal amount of $99,471,983.51.

Small Escrow Amounts
The authority for this deposit fund is cited in 31 U.S.C. 3513. FMS uses this account to record the
following transactions: unresolved ACH (Automated Clearing House) issues and unidentified
remittances. Therefore, this deposit fund temporarily holds non-federal funds due to the public.

Small Differences Account for Deposit and Check Adjustments
The authority for this deposit fund is cited in 31 U.S.C. 3513. This account was established in 1959 as a
deposit suspense account for adjusting small differences, all small differences $1.00 or less for deposits
and checks only. This account is used to adjust small differences relating to receipt and payment
transactions processed by depositaries, agencies, and disbursing offices.

Suspense, Net Interest Payments to States
The authority for this deposit fund is cited in 104 Stat 1061. The purpose of the account as stated in the
Cash Management Improvement Act of 1990 is to ensure greater efficiency, effectiveness, and equity in
the exchange of funds between the Federal government and the States. The funds in this deposit fund are
non-federal funds owed to the states.

Accounts Payable, Check Issue Underdrafts
The authority for this deposit fund is cited in 31 U.S.C. 3513. This account is used by FMS for refunds

               This information is an integral part of the accompanying Schedules.
                                                20
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                   September 30, 2009 and 2008

and adjustments due the public.

Esther Cattell Schmitt Gift Fund
This trust fund was established pursuant to Public Law 87-467 which authorized acceptance of a
conditional gift to the United States from the late Esther Cattell Schmitt in the amount of $414,010. The
Will/Public Law stipulates that certain conditions be met before the United States can acquire title to the
gift. FMS is responsible for administering the trust fund account and investing the principal amount and
disbursing the earnings to the beneficiaries as well as depositing any earnings in excess of the amount due
to the beneficiaries into a miscellaneous receipt account.




               This information is an integral part of the accompanying Schedules.
                                                21
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                    September 30, 2009 and 2008


                                        Fiduciary Net Assets
                              For the Year Ended September 30, 2009
                                      (Amounts in Thousands)


                                                                             All Other          Total
                                                         Unclaimed           Fiduciary        Fiduciary
                                                          Moneys              Funds            Funds

Fiduciary Net Assets, Beginning of Year                 $    365,818     $       31,330   $      397,148

Increases
Contributions to Fiduciary Net Assets                          28,436           282,429          310,865
Investment Earnings                                                 -               775              775
Total Increases                                                28,436           283,204          311,640

Decreases
Withdrawals or Distributions of Fiduciary Net Assets          (4,601)         (133,980)        (138,581)
Distribution of Income                                              -              (17)             (17)
Total Decreases                                               (4,601)         (133,997)        (138,598)

Net Increase (Decrease) in Fiduciary Net Assets                23,835           149,207          173,042

Fiduciary Net Assets, End of Year                       $    389,653     $      180,537   $      570,190




                 This information is an integral part of the accompanying Schedules.
                                                  22
                              U.S. DEPARTMENT OF THE TREASURY
                               FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                       September 30, 2009 and 2008

                                           Fiduciary Net Assets
                                         As of September 30, 2009
                                         (Amounts in Thousands)



                                                Unclaimed              All Other            Total Fiduciary
                                                 Moneys             Fiduciary Funds             Funds

Fiduciary Assets
Fund Balance With Treasury                       $     389,653           $     165,571          $     555,224
Investments                                                  -                  14,703                 14,703
Other Assets                                                 -                     431                    431
Total Fiduciary Assets                                 389,653                 180,705                570,358

Liabilities
Less: Fiduciary Liabilities                                    -                  (168)                  (168)

Total Fiduciary Net Assets                       $     389,653           $     180,537          $     570,190



NOTE 7. COMMITMENTS AND CONTINGENCIES

   A contingency is an existing condition, situation or set of circumstances involving uncertainty as to
   possible payment to FMS. The uncertainty will ultimately be resolved when one or more future events
   occur or fail to occur. For pending, threatened or unasserted litigation, a liability/cost is recognized when
   a past transaction or event has occurred, a future outflow or other sacrifice of resources is probable, and
   the related future outflow or sacrifice of resources can be reasonably estimated.

   There are numerous legal actions pending against the United States in Federal courts in which claims
   have been asserted that may be based on action taken by FMS. Management intends to vigorously contest
   all such claims. Management believes, based on information provided by legal counsel, that losses, if any,
   for the majority of these cases would not have a material impact on the Schedules. There are other cases
   that could result in significant payouts; however, legal counsel is unable to determine the probability of
   an unfavorable outcome, or determine an estimate or range of potential loss, for these matters, if any. No
   loss accrual has been made for these cases outstanding at September 30, 2009 or 2008.

   In addition, FMS manages several accounts that may be used for the payment of claims against other
   Federal Agencies. Such payments are reflected in the following Non-Entity cost accounts reflected in the
   Schedules: Judgments and Moneys Erroneously Received and Covered. At September 30, 2009 and 2008,

                   This information is an integral part of the accompanying Schedules.
                                                    23
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

                                  September 30, 2009 and 2008

such claims are in various stages of settlement.

Pursuant to the provisions of FASAB Interpretation No. 2, Accounting for Treasury Judgment Fund
Transactions, claim amounts will be reflected in the Schedules upon completion of certain judicial
procedures and the Federal agency’s request for payment of these claims from the Judgment Fund. At
September 30, 2009 and 2008, $52 million and $40 million, respectively, has been accrued and reflected
in the appropriate line items in the Schedules for the estimated future expenditure expected to satisfy
these claims.




               This information is an integral part of the accompanying Schedules.
                                                24
     ATTACHMENT




25
     ATTACHMENT




26
